USDOJ: Learning Tree International Inc. Agrees to Pay $4.5 Million to Settle Allegations of Improper Billing Practices and Retention of Federal Funds
Skip to main content | Skip to footer site map
Home
About Us
The Attorney General
Budget & Performance
Strategic Plans
Agencies
Business & Grants
Business Opportunities
Small & Disadvantaged Business
Grants
Resources
Forms
Publications
Case Highlights
Legislative Histories
Information for Victims in Large Cases
Briefing Room
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
Careers
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
Contacts
Home   »  Briefing Room    »  Justice News
Printer Friendly
Department of Justice
Office of Public AffairsFOR IMMEDIATE RELEASEWednesday, April 7, 2010
Learning Tree International Inc. Agrees to Pay $4.5 Million to Settle Allegations of Improper Billing Practices and Retention of Federal Funds
WASHINGTON
– Learning Tree International Inc. has agreed to pay the United States $4.5 million to resolve allegations that it violated the False Claims Act when it improperly invoiced federal agencies in advance for information technology training courses and kept federal funds for training courses that were never actually provided, the Justice Department announced today.
Under its contract with the General Services Administration ("GSA"), Learning Tree sells information technology training courses to the federal government in multi-course packages known as "vouchers" or "passports." To prevent the United States from paying for training services that are not actually rendered, the contract specifically requires that Learning Tree invoice the government only after services are provided.
The settlement resolves allegations that Learning Tree knowingly invoiced federal agencies in advance for multi-course training packages before employees of the purchasing agencies had attended the full number of courses available under each. The government further alleged that upon expiration of the training packages, Learning Tree retained federal funds that the company received in connection with unused courses without providing a refund or credit. As a result, Learning Tree received federal funds for training courses that were not, in fact, provided.
"Government contractors must deal fairly and honestly with the United States," said Tony West, Assistant Attorney General for the Civil Division of the Department of Justice. "When federal funds are being misused, we will take action to protect the taxpayers."
This matter was investigated by the General Service Administration Office of Inspector General, the Department of Agriculture Office of Inspector General, the Department of Commerce Office of Inspector General, and the Department of Justice, Civil Division.
10-373Civil Division
Department of Justice Accomplishments
Open Government at the Department of Justice
Report a Crime
Get a Job
Locate a Prison, Inmate, or Sex Offender
Apply for a Grant
Submit a Complaint
Report Waste, Fraud, Abuse or Misconduct to the Inspector General
Find Sales of Seized Property
Find Help and Information for Crime Victims
Register, Apply for Permits, or Request Records
Identify Our Most Wanted Fugitives
Find a Form
Report and Identify Missing Persons
Contact Us
Site Map
A to Z Index
Archive
Accessibility
FOIA
No FEAR Act
Information Quality
Privacy Policy
Legal Policies & Disclaimers
For Employees
Office of the Inspector General
Government Resources
USA.gov
BusinessUSA
ABOUT
The Attorney General
Budget & Performance
Strategic Plans
AGENCIES
BUSINESS & GRANTS
Business Opportunities
Small & Disadvantaged Business
Grants
RESOURCES
Forms
Publications
Case Highlights
Legislative Histories
Information for Victims in Large Cases
NEWS
Justice News
The Justice Blog
Videos
Photo Gallery
CAREERS
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
CONTACT